Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     Institutional   Review Boards:

The Emergence of Independent Boards




                      JUNE GIBBS BROWN
                       Inspector General

              -            JUNE 1998
                         031-01-97-00192
                         OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                                 HEADOUARTERS

Dana M. Miller                                         Lisa Foley
Nathan P. Rouillard
Elizabeth A. Robboy
Laura C. McBride




       To obtain copies of this report, please call the Boston Regional Office at (617)565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                         SUMMARY

PURPOSE

       To describe the role of independent institutional review boards in ensuring protections for
       human subjects of clinical research.

BACKGROUND

Role of Institutional    Review Boards

       Institutional review boards (IRBs) play vital roles in protecting human research subjects.
       They review initial research plans to make certain that the plans provide subjects with
       adequate opportunity to give their informed consent and do not expose subjects to
       unreasonable risks. They also conduct continuing review of approved research to ensure
       that human-subject protections remain in force. They carry out their initial and
       continuing review functions in accord with Federal regulations first established in the
       1970s and applicable to all research funded by the U.S. Department of Health and Human
       Services or carried out on products regulated by the Food and Drug Administration.

       Over the past 25 years, thousands of IRBs have formed to help ensure human-subject
       protections. At first, most were in large academic centers, where most of the federally
       funded research still occurs. As research spread to other settings and as commercially
       sponsored research increased, IRBs arose in different environments such as community
       hospitals, managed care organizations, and government agencies. A few emerged as
       independent entities working outside of institutions where research is performed.

Independent   Boards: The Focus of This Report

       This report focuses on independent IRBs, about which little has been published. One of
       4 reports we are issuing on IRBs, it draws primarily on the interviews we held with
       representatives of 11 independent IRBs. In addition, it relies on information gathered
       from interviews and group discussions with representatives of about 60 other IRBs; site
       visits to 6 IRBs; reviews of Federal records; and attendance at IRB meetings.

FINDINGS

Independent   IRBs Are Playing an Increasingly       Prominent Role in the Research
Community.

       While There are Relatively Few of Them, Their Number has been Growing. 

       Although one dates back to 1968, most were established in the 1980s and ‘90s. It appears 

       that at least 15, and perhaps quite a few more, are now operating. 



                                                 1                   031-01-97-00192   Independent   IRBs
     They Oversee an Increasing Number of Research Plans. In the last 2 years,
     independent IRBs we contacted reported an average increase of approximately 36 percent
     in initial protocols reviewed. The largest and oldest of the independent IRBs reviewed
     more initial protocols in 1997 than did many IRBs in academic health centers.

     They are Now Reviewing HHS-Sponsored Research. Prior to 1995, all such research
     was being overseen by IRBs at the institutions where the research occurred. In that year,
     some HHS grantees first gained Federal approval for an independent board to serve as
     their IRB. At present, independent boards are responsible for at least 12 HHS-funded
     projects.

     They are Becoming More Involved with Hospital-Based Research. Some act as the
     IRB of record for hospitals. Some provide consultation to hospital-based IRBs. One has
     contracted with a major medical center to review all commercially sponsored protocols
     for that center’s IRB.


Independent IRBs Offer Advantages That Institutional                 IRBs Find Difficult             to
Match.

     They Are Geared to Quick Decisions on Research Plans. Independent IRBs are
     organized to respond to commercial sponsors’ expectations for timely reviews. On
     average, those we interviewed reported that they could provide initial research protocol
     decisions in about 11 days. For the academic health centers we reviewed, the average
     was about 37 days.

     They Provide a Detached Source of Expertise. Independent IRBs are not affiliated
     with the institutions whose research they review and are unlikely to have collegial
     relationships with the investigators. This detachment facilitates research plan review
     without institutional or collegial biases.

     They Can Provide Unified Reviews for Multi-Site Trials. For such trials, an
     independent IRB can serve as a single entity reviewing the applicability of a specific
     research plan to various sites. This eliminates the complications that result from multiple,
     local IRB reviews. It also facilitates analysis of adverse-event reports from various sites.


Yet, The Use of Independent IRBs Raises Concerns.

     They Are Not Local Review Bodies. Local review is a long-established principle of
     human-subject protection. Familiarity with the conditions of the institution, the
     investigators, and the local community have been viewed as vital to effective human-
     subject protection. Concerns about independent IRBs’ ability to provide local review
     have inhibited their participation in federally sponsored research. The independent IRBs



                                              ii                    OEI-01-97-00192   Independent   IRBs
    have sought to ease such concerns by keeping abreast of the research site’s circumstances
    through site visits, local contacts, newspaper clipping services, and other means.

    They May Be Subject to Conflicts of Interest. Some IRB officials are concerned that
    independent IRBs, almost all of which are for-profit enterprises, may compromise the
    review process to please their sponsors/customers and to advance their financial well-
    being. Yet, these officials also express concern that in an increasingly competitive
    environment, all IRBs are subject to conflicting pressures that could compromise their
    core mission.

    They Heighten Concerns about IRB Shopping. Sponsors who are unhappy with the
    reviews of one independent IRB may seek out another that they expect to be more
    accommodating. The independent IRBs themselves may not know if a sponsor’s research
    plan has been turned down, or found lacking, by another IRB.


CONCLUSION

    We offer two concluding observations that have broad significance for the Federal system
    of human-subject protections.

    First, independent IRBs have become a noteworthy part of the IRB landscape. They
    provide some competition to IRBs in academic health centers and other settings and, in so
    doing, contribute to a marketplace ethic--one that is quite different from that 20, or even
    10 years ago. This development presents opportunities in that it encourages more timely
    and innovative approaches to review. At the same time, competitive pressures on IRBs
    present dangers that can compromise human-subject protections.

    Second, independent IRBs raise important questions for Federal oversight. How can the
    Federal government best ensure that independent IRBs help protect human research
    subjects? That the emerging competition does not compromise safeguards? That
    independent IRBs’ advantages and efficiencies are not undercut by unnecessary Federal
    regulation? Such questions underscore the importance of understanding the effectiveness
    of IRBs--whether they are independent or part of research organizations. We address this
    matter in our summary report, Institutional Review Boards.. A Time For Reform.


COMMENTS      ON THE DRAFT REPORTS

    Within the Department of Health and Human Services, we received comments on our 

    four draft reports from the National Institutes of Health, the Food and Drug 

    Administration and, jointly, from the Assistant Secretary for Planning and Evaluation ant 

    the Assistant Secretary for Health. We also solicited and received comments from the 

    following external parties: the Applied Research Ethics National Association, the 

    American Association of Medical Colleges, the Consortium of Independent Review 


                                            ... 

                                            111                  OEI-01-97-00192 Independent   IRBs 

Boards, and Public Citizen’s Health Research Group. We include the detailed text of all
of these comments and our responses to them in appendix D of our overview report,
Institutional Review Boards: A Time for Reform (OEI-01-97-00193). In the executive
summary of that report, we summarize the thrust of these comments and our responses.




                                       IV                   OEI-01-97-00192   Independent   IRBs
                                                                                                                                       PAGE
EXECUTIVE           SUMMARY 


INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .._......... 
        ...............               1

IRBs: THE BASICS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
 ...............                        3

FINDINGS 


          Independent IRBs are Playing an Increasingly Prominent Role . . . . 
 ...............                                                   4

          They Offer Advantages to Research Sponsors . . . . . . . . . . . . . . . . . . 
 ...............                                        5

          They Raise Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
 ..............                          6

CONCLUSION              . . . . .._...........................__........... 
                                       ...............               8

APPENDICES 


          A: Endnotes............................................ 
                                                 . . . . . . . . . . . . A-l




                                                                                                         OEI-01-97-00192    Independent    IRBs
                         INTRODUCTION

PURPOSE
   To describe the role of independent institutional review boards in ensuring protections for
   human subjects of clinical research.



BACKGROUND
   On page three we provide a primer on institutional review boards (IRBs). We explain
   why they were established, what roles they perform, how they are organized, where they
   are located, and how the Department of Health and Human Services (HHS) oversees
   them.

   A number of studies of IRBs have been undertaken, the most thorough of which was
   published in 1978.’ Since then,
   however, sweeping changes have
                                                            IndeDendent IRBs
   transformed the economics and
   organization of clinical research. An
                                            These boards are not part of any organization in 

   increase in the commercial funding of    which research is conducted. 

   clinical research has changed the
   culture of research and has driven the   They are hired by research sponsors (most often 

   demand for independent IRBs.             pharmaceutical and device manufacturers) and 

   Research has evolved from the single-    investigators to review research plans. 

   site model--with one hospital-based      Most are for-profit entities. 

   clinical investigator and a few
   subjects--to multi-site projects         Some are owned by other organizations (such as 

   involving numerous private-practice or   contract research organizations that place 

   clinic-based physicians and,             clinical studies for research sponsors). 

   sometimes, thousands of subjects2        Some offer consultation, training, and other 

                                                  services in addition to traditional IRB services. 

   In the midst of the many changes that
   are transforming the clinical research      Board members are paid for their work, either 

   environment, a renewed interest in          on a per-meeting basis, an hourly basis, a per-

                                               protocol-reviewed basis, or some combination 

   human-subject protections and the role
                                               thereof. 

   of the IRB has arisen. A 1995 report
   issued by the Institute of Medicine
   (IOM) called for an examination of the effectiveness of the IRB system? Another 1995
   report, issued by a Presidential advisory committee, raised a number of concerns about
   the performance of IRBs! A 1996 report from the U.S. General Accounting Office
   suggested that “continued vigilance over human subject research should remain a priority
   for the research community and agencies charged with oversight.“5 The National



                                              1                         OEI-01-97-00192   Independent   IRBs
     Bioethics Advisory Commission is examining the current state of human-subject
     protections and has pursued information about IRBs.~ These and other reviews, however,
     have given only passing attention to independent IRBs.

This Inquiry and This Report

     This report, which is one of four that we are issuing on IRBs, focuses on the independent
     IRBs. It describes their growing presence and the major advantages and disadvantages
     attributed to them. The report is designed to complement its three companion reports.
     One, Institutional Review Boards: Their Role in Reviewing Approved Research, finds that
     IRBs devote minimal attention to continuing review and identifies key obstacles to such
     review. Another, Institutional Review Boards.. Promising Approaches, presents
     innovative efforts that IRBs have undertaken in six key areas of responsibility. A third,
     Institutional Review Boards: A Time For Reform, provides a summary of IRB functioning
     and presents recommendations.

     Our inquiry draws on a variety of sources. Of particular relevance to this report were our
     interviews with independent IRB officials. We held a group discussion with members of
     the Consortium of Independent IRBs (CIRB) and conducted telephone interviews with
     representatives of the 10 IRBs that are CIRB members and 1 independent IRB that is not
     a CIRB member. We also drew on interviews and group discussions with representatives
     of about 60 additional IRBs;~ government documents and national commission reports
     produced over the past 25 years; articles and books addressing human-subject protections;
     Federal records on IRBs; issues raised on an electronic e-mail forum by those associated
     with IRBs; attendance at IRB meetings; site visits with FDA inspectors; and site visits to
     6 IRBs based in academic health centers.

     We conducted this inspection in accordance with the Quality Standards for Inspections
     issued by the President’s Council on Integrity and Efficiency.




                                             2                    OEI-01-97-00192   Independent   IRBs
                        INSTITUTIONAL          REVIEW BOARDS: THE BASICS

What Do They Do?
  The responsibilities of IRBs fall into two main categories: initial review and continuing review of research
  involving human subjects.
  Initial Review: IRBs review and approve a research plan before the research is carried out. This review
  encompasses the research protocol, the informed consent document to be signed by subjects, any
  advertisements to be used in recruiting subjects, and other relevant documents. In carrying out this review,
  the boards seek to ensure that any risks subjects may incur are warranted in relation to the anticipated
  benefits, that informed consent documents clearly convey the risks and the true nature of research, that
  advertisements are not misleading, and that the selection of subjects is equitable and justified. IRBs focus
  much attention on the informed consent document because it is the vehicle for providing information to
  potential research subjects.
  Continuing    Review: The continuing review process is multifaceted and includes required reviews “at an
  interval appropriate to the degree of risk but not less than once per year.” In addition to this continuing
  review, study amendments and reports of unexpected adverse experiences by subjects are received
  periodically and reviewed to ensure that the risk-benefit ratio of the research has not changed and remains
  acceptable.

Why Were They Established?
  As public awareness and concern about the treatment of human subjects in research increased, the need for
  additional review mechanisms was evident. These concerns grew from stories of the abuse of subjects during
  the World War II trials at Nuremberg, the promotional distribution of thalidomide resulting in numerous
  children born with birth defects, the administration of cancer cells to chronically ill and senile patients at a
  hospital in New York, and others. A 1966 article by Henry Beecher brought prominent attention to human
  research abuses in medical schools and hospitals citing 22 cases involving highly questionable ethics. The
  formal requirements for the establishment of IRBs were outlined in regulations stemming from the National
  Research Act of 1974 and in FDA regulations issued in 1981.

Where Are They Located?
  An estimated 3,000-5,000 IRBs can be found across the country. They are most commonly associated with
  hospitals and academic centers. Boards also exist in managed care organizations, government agencies (such
  as the National Institutes of Health, the Centers for Disease Control, and State governments), or as for-profit
  entities that are independent of the institutions in which the research takes place.

How Are They Organized?
 Federal regulations require that boards have at least five members with varying backgrounds. At least one
 member must have primarily scientific interests, one must have primarily nonscientific interests, and one must
 be otherwise unaffiliated with the institution in which the IRB resides. A quorum, with at least one member
 whose interests are primarily nonscientific present, is needed for voting.

How Does the Department      of Health   and Human   Services (HHS)    Oversee   Them?
 Two agencies within HHS share responsibility for IRB oversight: the Office for Protection from Research
 Risks (OPRR) in NIH and the FDA. The OPRR’s main tool for oversight is the assurance document. Any
 institution that intends to conduct HHS-funded research must have an assurance on file with OPRR. The
 assurance is a written statement of an institution’s requirements for its IRB and human-subject protections.
 Institutions consistently conducting multiple HHS-supported studies are eligible for a multiple project
 assurance (MPA) which can be renewed every five years. Institutions with smaller HHS-funded workloads,
 however, use a single project assurance (SPA) for each such project it conducts. The OPRR also conducts a
 small number of site visits. The FDA’s main mechanism for IRB oversight is the inspection process. The
 FDA also inspects research sponsors and scientists (known as research investigators).




                                                        3                         OEI-01-97-00192   Independent IRBs
                                  FINDINGS 


Independent IRBs are Playing an Increasingly Prominent Role in
the Research Community.
While There are Relatively Few of Them, their Number has been Growing.

      The exact number of independent IRBs is not known, but the Consortium of Independent
      IRBs estimates that there are at least 15, and perhaps quite a few more. While 1 of these
      independent IRBs dates to 1968, at least 10 were established after 1980, and 4 of these
      were established after 1990. The increasing number of independent IRBs parallels an
      increasing number of research protocols being put forward by commercial sponsors.8

They Oversee an Increasing Number of Research Plans.

      The number of research plans that the independent IRBs review is considerable and
      growing. In the last 2 years, independent IRBs we contacted reported an average increase
      in initial reviews of approximately 36 percent. In 1997, the independent IRBs we
      surveyed conducted an average of 256 initial reviews.’ The largest and oldest of them
      reviewed over a 1,000 initial protocols and conducted over 4,000 continuing reviews in
      1997, a caseload comparable with many IRBs in academic health centers.

      The great preponderance of the research that independent IRBs oversee is sponsored by
      either pharmaceutical or device manufacturers and is conducted in physician offices
      outside of hospitals, medical clinics, or commercial-research facilities. A growth of
      research in such independent-investigator sites has contributed to the increase in the
      number of protocols that these IRBs review.”

They are Now Reviewing HHS-Sponsored        Research.

      Independent IRBs are increasingly being used for HHS-funded clinical studies. In these
      cases, a research institution must obtain a single project assurance from OPRR. It was
      not until 1995 that OPRR began granting assurances for projects that involved
      independent IRBs. It has continued this practice in subsequent years, so that at least
      12 such assurances are now in place. The number is likely to increase in the years
      ahead.’ ’

They are Becoming More Involved with Hospital-Based       Research.

      Independent IRBs become increasingly attractive to some hospitals as the quantity and
      complexity of their own IRBs’ workloads increase. Four of the 11 independent IRBs
      with which we spoke already act as IRBs of record for one or more hospitals. One, in
      fact, had established a contract with a major academic health center IRB to review all
      commercially sponsored research plans for that IRB. A few other large research


                                              4                    031-01-97-00192   Independent   IRBs
       institutions have separated their commercially sponsored research from the Federal
       assurance requirements that apply to all HHS-funded research, thereby giving the
       institution greater flexibility in contracting with independent IRBs if it so chooses. Many
       of the experienced IRB officials with whom we spoke noted that such separations are
       becoming increasingly likely and present good market opportunities for independent
       IRBS.

Independent IRBs Offer Advantages That Institutional                             IRBs Find
Difficult to Match.
They Are Geared to Making Quick Decisions on Research Plans.

       To commercial sponsors, time is money. Sponsors expect IRBs to do their work
       properly, but to do it quickly as well. Independent IRBs are organized to meet this
       expectation. It is widely recognized, by research sponsors and in the IRB community
       more generally, that they provide research sponsors with timely responses to their
       submissions.‘2 Thus, for instance, the independent IRBs we contacted reported that, on
       average, they were able to provide research sponsors with an approval or disapproval
       decision for initial, non-expedited research protocols in an average of about 11 days. By
       contrast, the IRBs in academic medical centers that we visited reported decisions in an
       average of about 37 days.

      Independent IRBs have an inherent advantage in meeting timeliness expectations because
      they hire their board members with the understanding that the members will be regularly
      available to conduct reviews.13 Hospital IRB members, in contrast, are almost always
      volunteers with many competing demands for their time. Not surprisingly, independent
      IRBs tend to meet more frequently and can meet with minimal notice. The independent
      IRBs we contacted reported holding multiple board meetings each month. One
      independent IRB reported that it holds four meetings a week. Academic health centers
      and hospitals generally are hard-pressed to match that.i4

They Provide a Detached Source of Expertise.

      Independent IRBs are staffed by people who have no affiliation with the institutions
      whose research plans they review and who are unlikely to have collegial relationships
      with the investigators whose work they review.15 Thus, the independent IRBs can operate
      without being influenced by concerns about the financial well-being or prestige of the
      institution that employs them or the career interests of colleagues. One hospital official,
      who has worked with independent and hospital-based IRBs, underscored the importance
      of such detachment, pointing out that it leads to greater objectivity. IRB officials in other
      settings, however, are wary of such a conclusion.




                                                5                    OEI-01-97-00192   Independent IRBs
They Provide Unified Reviews for Multi-site     Trials.

       Some multi-site trials involve research sites that do not have their own IRBs or do not
       require that all local research be overseen by the site’s own IRB. In such cases,
       independent IRBs can serve as a single entity reviewing the applicability of a specific
       research plan to various sites.‘(j This unified review eliminates the complications that
       result from multiple, local IRB reviews of a sponsor’s research plan. It also facilitates
       analysis of adverse-event reports submitted from individual sites and, in so doing, can
       enhance protections for human subjects.

Yet, the Use of Independent IRBs Raises Concerns.
They Are Not Local Review Bodies.

       In the 1970s when the current infrastructure of Federal protections for human research 

       subjects was established and when relatively few national multi-site trials were underway, 

       local review was regarded as essential. In one of its key reports, the National 

       Commission for the Protection of Human Subjects of Biomedical and Behavioral 

       Research concluded: 


              ...the rights of subjects should be protected by local review committees operating
              pursuant to federal regulations and located in institutions where research
              involving human subjects is conducted. Compared to the possible alternatives of
              a regional or national review process, local committees have the advantage of
              greater familiarity with the actual conditions surrounding the conduct of research.
              Such committees can work closely with investigators to assure that the rights and
              welfare of human subjects are protected and, at the same time, that the application
              of policies is fair to the investigators.17

       The OPRR’s recent decision to grant assurances involving independent IRBs is based
       largely on the IRBs’ commitments to stay well-informed about local sites. In response to
       OPRR and other concerned parties, the independent IRBs point to a variety of ways in
       which they keep abreast of the site circumstances. These include site visits, local
       contacts, relationships with local IRBs, newspaper clipping services, and other means.
       Many in the IRB field remain unconvinced that such compensatory efforts allow for
       adequate local representation.

They May Be Subject to Conflicts of Interest.

       Some IRB officials are concerned that an independent, for-profit IRB might compromise
       its review process to advance the financial well-being of the firm. Such concerns are
       heightened to the extent that corporate-equity owners or employees serve on the IRB
       review boards and are sustained to some extent by the fact that reviewers are paid for
       their services. The NIH policy for HHS-funded research reviews by for-profit IRBs is to
       prohibit equity owners from participating in the review process. There is no such policy


                                                6                     OEI-01-97-00192   Independent   IRBs
      for industry-sponsored studies submitted to FDA. As we noted earlier, the great
      preponderance of research overseen by independent IRBs is sponsored by either
      pharmaceutical or device manufacturers.

      A contrast is often made with the academic health center,    where, some IRB officials say,
      a long established research culture allows for greater IRB    independence. In an
      increasingly competitive research environment, however,      in which those centers are
      seeking to maximize clinical research revenues, the IRBs     in these centers can also
      experience conflicting pressures.

They Heighten Concerns about IRB Shopping.

      For research that is not federally funded, sponsors have considerable discretion in their
      choice of an IRB. A problem here is that if one IRB finds fault with the sponsor’s
      research plan, the sponsor might then contract with another IRB without informing it of
      the prior board’s determinations. While applicable to all IRBs, this vulnerability is
      particularly germane to independent IRBs since nearly all the proposals they review are
      not federally funded. Some representatives of these boards emphasized this point to us
      and felt there was a good case for a Federal requirement that when submitting a research
      plan for review, sponsors must inform the IRB of any prior IRB reviews of that plan.




                                               7                      OEI-01-97-00192   Independent IRBs
                        CONCLUSION
This report does not afford us a basis for assessing how well independent IRBs are
performing. But, it does lead us to two concluding observations that have broader
significance for the Federal system of human-subject protections.

First, independent IRBs have become a noteworthy part of the IRB landscape. They give
research sponsors an alternative to the traditional, well-established IRBs. Particularly for
non-federally funded research, they allow for these sponsors to engage in some shopping
to determine what IRBs best meet their needs. In that sense, they serve as competition to
the longer established IRBs, especially those in academic health centers, and contribute to
a marketplace ethic--one that is quite different from the ethic of 20 or even 10 years ago
when IRB activity was carried out within a more clearly defined research culture. This
development presents both opportunities as well as dangers. On the one hand, it
encourages IRBs to undertake more timely and innovative approaches to their review
processes. On the other hand, the competitive pressures to satisfy research sponsors can
lead some IRBs to be less vigilant in protecting human subjects.

Second, independent IRBs raise important questions for Federal oversight. How can the
Federal government best ensure that independent IRBs afford necessary protections?
That the emerging competition does not compromise safeguards? That the advantages
and efficiencies offered by independent IRBs are not undercut by unnecessary Federal
prescriptions? Such questions underscore the importance of having a good understanding
of the actual effectiveness of IRBs, whether they are independent or part of an
organization that conducts research. This is a matter we address in our summary report,
entitled, Institutional Review Boards.. A Time For Reform.




                                         8                    OEI-01-97-00192   Independent   IRBs
                                                                                        APPENDIX        A




1. The National Commission for the Protection of Human Subjects of Biomedical and
Behavioral Research contracted with the Survey Research Center of the University of Michigan
to conduct a study that focused on IRB review procedures and research projects reviewed in
1974- 1975 at a representative sample of 6 1 of the more than 420 institutions that had DHEW
assurances. The study methodology entailed interviews with more than 3900 people involved
with the IRBs (including IRB members, researchers whose protocols were reviewed by IRBs, and
research subjects.) According to Paul M. McNeil, this study is still the most thorough of any on
record in any country (Paul M. McNeil, The Ethics and Politics of Human Experimentation,
Cambridge: Cambridge University Press, 1993, p. 86).

2. 	 This evolution in research mainly applies to studies involving investigational drugs. In the
case of medical devices some large, multi-site studies were already underway in the late 1970s.

3. Ruth Ellen Bulger, Elizabeth Meyer Bobby, Harvey V Fineberg, editors, Society’s Choices.
Social and Ethical Decision Making in Biomedicine, (Washington, DC: National Academy Press,
1995) p. 182.

4. 	 Advisory Committee on Human Radiation Experiments, Final Report, Washington DC: U.S.
Government Printing Office, 1995.

In that same year, a report from the HHS Office of Inspector General raised concerns about IRBs’
ability to monitor ongoing clinical trials and about the extent to which effective linkages exist
among hospital committees, offices, and departments to adequately provide protection for human
subjects enrolled in clinical research. (Department of Health and Human Services, Office of
Inspector General, Investigational Devices; Four Case Studies, OEI-05-94-00100, April 1995.)

5. U.S. General Accounting Office, ScientiJic Research: Continued Vigilance Critical to
Protecting Human Subjects, GAOIHHS-96-72, March 8, 1996, p. 3.

6. 	 The National Bioethics Advisory Commission (NBAC) was established by Executive Order
12975 on October 3, 1995. Section 5 of the executive order establishing NBAC states that as a
first priority, NBAC shall direct its attention to consideration of protection of the rights and
welfare of human research subjects.

7. These IRBs are overseeing research at institutions receiving over 1.4 billion dollars of Public
Health Service (PHS) awards. As of March 1998, these institutions received over 27 percent of
the PHS dollars awarded extramurally for human subject research.

8. The FDA suggests that the reason for more independent IRBs stems from a change in FDA’s
regulations in 198 1. For a further elaboration, see FDA’s Comments on the Draft OIG Report
(appendix D) in our summary report entitled, Institutional Review Boards.. A Time For Reform.




                                               A-l                    031-01-97-00192   Independent   IRBs
9. A recent survey of academic health centers found that their IRBs were reviewing an average 

of 297 proposals a year. (Hayes et al., “A Survey of University Institutional Review Boards: 

Characteristics, Policies, and Procedures,” IRB, Vol. 17, May-June 1996, No. 3, pp. 1-6.) 

A second survey, this one of hospitals with at least 400 beds, reported that IRBs reviewed an 

average of 84 proposals per year. (Jones et al., “Structure and Practice of Institutional Review 

Boards in the United States,” Academic Emergency Medicine, Vol. 3, August 1996, No. 8, pp. 

804-809.) 



10. “Independent IRBs: Subject Protection and Client Service Are the Keys,” 

Bio/Pharmaceutical Outsourcing Report, (October 1997) Vo12, Number 10, p. 1. 


11. The FDA has long accepted independent IRBs as part of the clinical research landscape and 

has audited independent IRBs. 


12. “Independent IRBs: Subject Protection and Client Service Are the Keys,” 

Bio/Pharmaceutical Outsourcing Report, (October 1997) Vo12, Number 10, p. 1. 


13. Of the seven IRBs that provided us with information on this topic, four reported that they 

paid IRB members for each meeting attended; one paid members for each protocol reviewed; 

another compensated members a base amount for each meeting plus an additional amount for 

meeting agenda items that surpassed the fixed number; and the seventh used a mixed 

compensation system whereby most IRB members were paid for each meeting attended, but 

some members were paid an hourly rate for either meeting attendance or review of adverse event 

reports and Investigational New Drug safety reports. 


14. Some of the independent IRB officials we contacted also suggested that the research 

protocols they receive, which are mostly from pharmaceutical and device manufacturers, tend to 

be carefully prepared and do not require much revision or clarification. The sponsors and their 

agents, hoping to bring products for FDA approval, tend to be well aware of FDA’s requirements 

concerning IRB review and gear their submissions accordingly. 


15. When an institution lacks its own IRB, researchers could be tempted to establish a board for 

the sole purpose of reviewing a few proposals. Such situations could jeopardize human-subject 

protections because these IRBs would lack sufficient expertise. Independent IRBs are an 

alternative in such instances. 


16. Hospital IRBs that serve multi-hospital systems are also able to provide unified reviews for 

sites that are part of their system. 


17. Institutional Review Boards: Report and Recommendation of the National Commission for 

the Protection of Human Subjects of Biomedical and Behavioral Research, 43 Federal Register, 

30 November 1978, p. 56186. 





                                              A-2                    OEI-01-97-00192   Independent   IRBs
